OIG Audit Report GR-80-07-008

Forensic Casework DNA Backlog Reduction Program Cooperative Agreements Awarded to the Texas Department of Public Safety, Austin, Texas

Audit Report GR-80-07-008


April 2007
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, completed an audit of Forensic Casework DNA Backlog Reduction Program Cooperative Agreements 2004-DN-BX-K050, 2003-DN-BX-K024, and 2002-DN-BX-K012 awarded by the U.S. Department of Justice, Office of Justice Programs, National Institute of Justice (NIJ), to the Texas Department of Public Safety (TDPS) in Austin, Texas. 
 The Formula Grant Announcement for the 2004 Cooperative Agreement Program explained, “Funds are to be used by existing State and local crime laboratories that conduct DNA analysis to identify and test backlogged forensic DNA casework samples, whether in accredited or certified government-owned laboratories or through accredited or certified fee-for-service vendors. All forensic DNA casework samples analyzed using funding obtained through this announcement are to be included in the Combined DNA Index System (CODIS).” 
 The TDPS complied with grant requirements in six of the eight areas we tested. However, we found weaknesses in two of the eight areas — budget management and control and cooperative agreement expenditures. TDPS authorized a major budget change of $920,700 with insufficient approval from NIJ. Further, as described in the Cooperative Agreement Expenditures section of the report, we found unsupported expenditures resulting in questioned costs totaling $3,673. 







Return to OIG Home Page